VISA CLASSIC
F1
CREDIT CARD ACCOUNT OPENING DISCLOSURE
This Addendum is incorporated into and becomes part of your LOANLINER® Consumer Credit Card Agreement.
Please keep this attached to your LOANLINER® Consumer Credit Card Agreement.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances
Paying Interest

For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

F2
13.90%
F3
13.90%
F4
13.90%
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest on
cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

F5
1.00%

of each transaction in U.S. dollars

Up to F6
$15.00
F7
None
Up to F8
$25.00

How We Will Calculate Your Balance. We use a method called “average daily balance (including new purchases).” See
your account Agreement for more details.
Billing Rights. Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Statement Copy Fee
Rush Fee
Card Replacement Fee
Visa Sales Draft Fee
Card Capture Fee

F9
$15.00 or the amount of the required minimum payment, whichever is
less, if you are one (1) or more days late in making a payment.
F10
$25.00 or the amount of the required minimum payment, whichever is
less.
F11
$2.00 per page
F12
$10.00 per card plus postage
F13
$5.00
F14
$5.00
F15
If you card is captured, you may be required to pay the
$10.00
Capture Fee

Collection Costs. You agree to pay all costs of collecting the amount you owe under this Agreement, including court
costs and, if the amount you borrowed was greater than $1,000.00, reasonable attorney's fees.
Periodic Rates.
13.90% which is a monthly periodic rate of 1.1583%.
The Purchase APR is F16
F17
The Balance Transfer APR is F18
13.90% which is a monthly periodic rate of F19
1.1583%.
The Cash Advance APR is F20
13.90% which is a monthly periodic rate of F21
1.1583%.

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DIDBY1 (MXC452 CCM002)-e

